No. 20-3438

IN THE

5519

SUPREME COURT OF THE UNITED STATES

Steven P. BuBenchik, Jr.,
Petitioner,

supreme Court, US"
FILED

AUG 2 0 2021
VS.

OFFICE OF THE C) frk-

Warden, Douglas Fender,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO SIXTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Steven P. BuBenchik, Jr.,
#651282 (OB-62)
Lake Erie Corr. Inst.
Conneaut, Ohio 44030

RECEIVED
AUG 26 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTION(S) PRESENTED

4th AMENDMENT CLAIM

Testimony giving during the November 12,2013, Suppression hearing record
demonstrated NO exigent circumstances existed and NO attempt was made to secure a search
warrant, as the Law requires absent any established exigent circumstance.
Does the Constitution or Laws require a trial court fabricate facts outside sworn
testimony to justify a warrantless entry?

Does the Constitution or Laws require the Northern District of Ohio or the Sixth Circuit
court of Appeals completely ignore these contradicting facts because petitioner was only given
an opportunity to have his fourth amendment claim heard?
6th AND 14th AMENDMENT CLAIM

The Northern District of Ohio and the Sixth Circuit court of Appeals both agreed
petitioners' ineffective assistance of appellate counsel claim, is frivolous and holds no merit.
Does the Constitution or Laws require appellate counsel fail to raise a claim of Police
and Prosecutorial Misconduct or Ineffective Assistance of Trial Counsel, on Direct Appeal, when
petitioners grand jury and trial record demonstrated the State and Trial counsel intentionally
allowed "Officers" witnesses testify to evidence that was knowingly not submitted, or tested,
not presented or even a participant within the avoided BCI Lab Report?

4-

LIST OF PARTIES

Ki All parties appear in the Caption of the; case on the cove

T-

r page.

TABLE OF CONTENTS

PAGE
OPINION BELOW

1.

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3.

STATEMENT OF THE CASE

7.

REASONS FOR GRANTING THE WRIT

10.

CONCLUSION

16.

INDEX TO APPENDIXES
APPENDIX A

November 10, 2014, case no. 2014ca00020, Fifth District Court of Appeals

APPENDIX B

March 27, 2015, case no. 2014ca00020, Fifth District Court of Appeals

APPENDIX C

October 11, 2016, case no. 2016ca00086, Fifth District Court of Appeals

APPENDIX D

September 19, 2019, case no. 5:17cvl890 Northern District of Ohio

APPENDIX E

April 15, 2021, case no. 20-3438, Sixth Circuit Court of Appeals

APPENDIX F

May-3, 2021, case no. 20-3438, Sixth Circuit Court of Appeals

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to

review the judgment below.

OPINIONS BELOW

[ ] For cases from federal courts:
thTpetition andle

S‘ateS C°Urt °f“Weals- appears at Appendix JL

m reported at
(6? ^03/1,
--------.----------- ; or,
[ ] has been designated for publication but is not yet reported; or,
[ 1 is unpublished.

MS atS ““ **“ diStriCt C°Urt appeare at APP^i* — *
\M reported at '‘S
.a
------------------- ; or,
C ^ has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:

rpepe0nX°^6t„hl“e

r6Vi6W the mer‘tS " *

[£f reported at A^/iX
[ J has been designated for publication but is not yet reported- dr’
[ ] is unpublished.
’ ’
The opinion of the 'T? iFpfl
court
appears at Appendix
to the petition and is
W reported at
1\ t
; or,
[ ] has been designated for publication but iis not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

Poi cases from federal courts:
The date
on
A^^Xhl<?hoa|^it
ted Sfcates Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
fU- A timely petition for rehearing was denied by the United States Court nf
Appeals on the following" date:
Z7
,
0
order denying rehearing appearTat Apfcendi
^ °f^
' 1

°f ttae t0 fiIe the Pe««on fer a writ of certiorari
to and including------------------ ------- (date) on____________ was granted
m Application No.__ A
"
“ -------- (date)

The jurisdiction of this Court is invoked under 28 U. S. C. §1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my ease was \ \ - v c -1A
A copy of that decision appears at Appendix_LL__
m

petition for rehearing was thereafter denied on the following date:
appears at Ap^dbcIXl!

“ ^ °f

0rder denying rehearinS

, extension of time to file the petition for a writ of certiorari was granted
to and including----- -------------- (date) on
-— (date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S.

2.

C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4th Amendment

6th Amendment

14th Amendment

28U.S.C. §2254 (d) (1) (2)

3.

TABLE OF AUTHORITIES

PAGE
Agurs v. United States (1976), 427 U.S. 97

13.

Berger v. United States (1935), 295 U.S. 78

13.

Brigham City v. Struart (2006), 547 U.S. 398

11.

Cone v. Bell (2009), 556 U.S. 449

13.

Coolidge v. New Hampshire (1971), 403 U.S. 443

10.

Evitts v. Lucey (1985), 409 U.S. 387

15.

Giglio v. United States (1972), 405 U.S. 150

15.

Katz v. United States (1967), 389 U.S. 347

10.

Miller v. Pate (1967), 386 U.S. 1

15.

Teague v. Lane (1989), 489 U.S. 288

15.

Townsend v. Sain (1963), 372 U.S. 293

13.

Strickland v. Washington (1984), 466 U.S. 668

13.

STATUES AND RULES
4th AMENDMENT

4,10

6TH AMENDMENT

4, 13

14th AMENDMENT

4,13

28 U.S.C. §2254

8,12

OTHERS

O.R.C 2953.21
Ohio App R 26 (B)

8.
8.

STATEMENT OF THE CASE

Upon receiving Bubenchiks text message, "I don't want anything to do with you or the kids

Anymore, " I'll see you in the next lifetime," his estranged wife, who was restricted from corresponding
with Bubenchik and with not hearing anything for hours, calls the Massillon Police non- emergency line
once out of concern for his welfare. Police, in turn, twice went to Bubenchiks house, and with no
attempt to call him, no idea if anyone was present, no emergency 911 calls regarding Bubenchik and
with no attempt to secure a search warrant, officers received no response. When "midnight supervising
officer" Sgt. Kenneth W. Smith makes a forced entry through Bubenchiks front window officers fail to
announce their presence, and a gunshot rang out, Sgt. Smith fled the front door as K9 unit PTL. Miguel
Riccio fled through the front window. Bubenchik, minutes later yelled, "you F*ing N*ggas broke into my
home!", and fired off (12) twelve more shots out his second story window.

As relevant here, a (48 forty-eight day) BCI Lab Report " or shooting investigation" and it's two
conductors findings were deliberately avoided during Bubenchiks grand jury hearings, and
suppreptitiously placed into the discovery. A grand jury indicted Bubenchik on "fabricated" evidence
outside this completed BCI lab report, (the assigned BCI case investigator wasn't even subpoenaed).

Bubenchik moved to suppress evidence obtained from Sgt. Smith's unlawful entry. The trial
court held a Suppression Hearing and denied the motion on fabricated "emergency-aid" facts outside
Sgt.Smiths sworn testimony to justify his warrantless entry.

At trial, the jury and Bubenchik were not aware of this avoided BCI Lab Report, its two
conductors or the (5) five bullet fragments witnesses "officers" wrongfully testified to as being
submitted, tested, or even determined to be linked to Bubenchik. Bubenchik testified on his behalf, and
the jury convicted him. The trial court found him guilty of the specifications at a bench trial and

1.

sentenced him to 48 forty-eight years in prison. The Ohio Court of Appeals affirmed his conviction and
sentence . State v. Bubenchik, No.2014CA00020, 2014 WL 6066188 (Ohio CT. App Nov.10,2014), perm .
App. Denied, 29 N.E. 3d 1005 (Ohio 2015). See, (App. A).

During the pendency of Bubenchiks direct appeal, Bubenchik simultaneously pursued two forms
of collateral relief. On December 8, 2014, he petitioned to vacate or set aside his conviction, petitioned
for appointment of counsel, and petitioned a ballistic expert witness to have the physical "(5) five bullet
fragments" evidence to be truthfully and finally tested and the real BCI case investigation, Det. Jason
Gohlike to testify why he never submitted any of the (5) five bullet fragments that struck Sgt. Smith's
vehicle 1512, (3) three different times within his BCI Lab Report.

The trial court denied all said motions, the O.R.C. 2953.21 petition and the Ohio Court of
Appeals affirmed the decision. State v. Bubenchik, No.2016CA00086, 2016 WL 5930314 (Ohio Ct.App.
Oct. 11, 2016), perm. App. Denied, 72 N.E. 3d 658 (Ohio 2017), See, (App. B).

On February 9, 2015, Bubenchik moved to reopen his direct appeal pursuant to Ohio Appellate
Rule 26 (B), See, (App. C). The Ohio Court of Appeals denied his application, and the Ohio Supreme Court
declined to accept jurisdiction.

In his 28 U.S.C. §2254 petition, Bubenchik asserted that:

Ground One: (1) THE TRIAL COURTS DENIAL OF PETITIONERS SUPPRESSION MOTION WAS AN ERROR OF
LAW.

Supporting facts: the trial court justified Sgt. Smith's 4 th amendment violation on facts not
contained in his sworn testimony or in the suppression hearing record.

Ground Two: (2) PETITIONERS 14th AMENDMENT RIGHT WAS KNOWINGLY AND INTENTIONALLY
VIOLATEDTHROUGH POLICE AND PROSECUTORIAL MISCONDUCT.

6

Supporting facts: The state allow [ed] officers [to] submit and testify to physical (5) five bullet
fragments) evidence they were not apart of "BCI" of, that was not submitted or tested to be linked to
Bubenchik. And misrepresented a voicemail as emergency 911 call.
Ground Three: (3) TRIAL COUNSEL RENDERED INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL.

Supporting facts: Trial counsel fail [ed] to engage in pre-trial discovery, investigate officers
involved and allow [ed] officers to falsely testify to evidence "outside avoided BCI Lab Report" that was
not submitted, tested or even determined to be linked to his client.
Ground Four: (4) APPELLATE COUNSEL RENDERED INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL.
Supporting facts: Appellate Counsel fail [ed] to mention there was a BCI lab Report avoided
during Bubenchiks grand jury hearings, that was intentionally withheld from Bubenchik and intentionally
withheld during Bubenchiks entire jury trial contradiction physical evidence and testimony from, the
States 'Officers' witnesses. Bubenchiks trial counsel failed to question any of the "officers" about the
shooting or physical evidence occurring from officer's unlawful entry.
The Northern District of Ohios magistrate judge James R. Knepp II recommended Bubenchiks
Writ of Habeas Corpus be denied on July 17, 2019. And on September 19, 2019, Northern District Judge
Solomon Oliver, Jr., denied Bubenchiks Writ of Habeas Corpus and Issue of Certificate of Appealability,
See, (App. D).

On April 10, 2020, Bubenchik, acting pro se, filed a notice of appeal, motion to proceed in forma
pauperis and a motion requesting appointment of counsel to have the physical "(5) five bullet fragments
" evidence tested and on April 15, 2021, the Sixth Circuit Court of Appeals denied Bubenchiks request to
proceed with a Certificate of Appealability, to proceed in forma pauperis and appointment of counsel to
have the evidence finally and truthfully tested for the court and the record. See, ( App. E).

REASON FOR GRANTING THE PETITION

The Fourth Amendment to the United States Constitution states:

"the right of the people to be secure in their persons, houses, papers, and effects against
unreasonable search and seizures, shall not be violated and no warrants shall issue, but upon probable
cause, supported by Oath or affirmation and particularly, describing the place to be searched and the
persons or things to be seized."

U.S. Const, amend. IV.

MR. WAKSER: Okay. There was no search warrant, nobody had given you permission to enter
the home, correct?

SGT.SMITH: That's correct.

MR. WAKSER: Okay. Did you make any attempt to secure a search warrant?

SGT. SMITH: No.

(Doc.# 17-2, pg.lD.# 553)

The United States Supreme Court has held that " searches outside the judicial process, without
prior approval by a judge or magistrate, are per se unreasonable unless an exception applies." Katz v.
United States (1967), 389 U.S. 347, 357; Coolidge v. New Hampshire (1971), 403 U.S. 443.

MR. WAKSER: Okay. And you didn't even know for sure whether anybody was even in the
residence, is that a fair statement?

SGT. SMITH: That's correct.

(Doc.# 17-2, pg.lD.# 553)

MR. WAKSER: Sir, you stated that you weren't aware if anybody had attempted at any point to
call the defendant's residence to see if you could reach him by phone?

)0,

SGT. SMITH: That's correct.

MR. WAKSER: Okay. Did the parents give you a phone number to try to reach him by phone?
SGT. SMITH: No.

MR. WAKSER: Okay. Were they asked for a phone number?
SGT. SMITH: They weren't asked by me.

(Doc.# 17-2, pg.lD.# 552)

//_one
—exigency obviating the requirement of a warrant is the need to assist persons who are
seriously injured or threatened with such injury." Brigham City v. Struart (2006), 547 U.S. 398, 403.
Under this "emergency-aid" exception "Officers may enter a home without a warrant to render
emergency assistance to an injured occupant or to protect an occupant from imminent injury."
MS. HARTNETT: Okay. Was that a 911 call?

SGT. SMITH: I'm not sure if that was a 911 call or to our non-emergency number.
(Doc.# 17-2, pg.lD.# 528)

MR. WAKSER: Okay. There were no 911 calls from BuBenchik's residence, correct?
SGT. SMITH: Not that I know of.

(Doc.# 17-2, pg.lD.# 555)

MR. WAKSER: Okay. All right. So certainly you and other officers were aware that you - there is
a method for contacting a Judge and getting prior authorization to enter a home, correct?
SGT. SMITH: Sure.

MR. WAKSER: Okay. Was any of that done on this particular night?
SGT. SMITH: Nope.

(Doc.# 17-2, pg.lD.# 556,557)

<(.

MR. WAKSER: Okay. Your concerns that led you to enter the defendants home, these concerns
were based solely upon what the defendant's estranged wife had told you?

SGT. SMITH: That's correct.

(Doc.# 17-2, pg.lD# 554)

To allow a warrantless home entry on these facts would be to approve unreasonable police
behavior that the principles of the fourth amendment will not sanction. Therefore, any and all evidence
obtained as a result of this unlawful entry must be suppressed, including, but not limited to, the
observation of the police, any statements made by defendant, any physical evidence seized and any
evidence to which police may have been led as a result of the unlawful entry and search. Katz, supra.

The trial court wrongfully justified Sgt. Kenneth W. Smiths' warrantless entry on these fabricated
"emergency-aid" facts:

•

Massillon Police received a 911 call

•

Defendant would not pick up calls

•

All of whom expressed their concern that defendant had harmed himself

The Fifth District Court of Appeals failed to correct theses and numerous other fabricated facts

the trial court concocted outside Sgt. Kenneth W. Smiths' sworn testimony (displayed above).

Under the Post-AEDPA version of 28 U.S.C § 2254 (d)(1) and (2). An application for Writ of
Habeas Corpus on behalf of a person in custody to the judgment of a State court shall not be granted
with respect to any claim that was adjudication on the merits in state court proceedings unless the
adjudication of the claim-

1.) Resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal Law, as determined by the Supreme Court of the United States:
Or,

IZ_,

2..) resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.

Petitioner respectfully request this Supreme Court grant this Petition, because (displayed above)
Petitioners' 4th amendment right to be secure in his home was violated and because the lower courts
failed to grant petitioner habeas relief under the 28 (J.S.C § 2254 (d) (1) and (2) violations, from these
facts. Townsend v. Sain (1963), 372 U.S. 293.

6th AND 14th AMENDMENTS

The Supreme Court stated in Berger v. United States (1935), 295 U.S. 78, 84:
Although the state is obliged to prosecute with eagerness and vigor, it is as much [her] duty to
refrain from improper methods calculated to produce a wrongful conviction as it is to use every
legitimate means to bring about a just one." See also, Cone v. Bell (2009), 556 U.S. 449, 469.

MS. HARTNETT: Okay. Had you been assigned the task of investigating this new case then that
occurred on the 9th of August, 2013?
DET. GRIZZARD: Yes, I was.

(Doc.# 17-5, pg.# 1026) United States v. Agurs (1976), 427 U.S.

97,103.

Appellate Counsels reasonableness was to fail to mention, on direct appeal, that this detective,
Det. Grizzard, was not assigned to the "avoided" (48 forty-eight day) BCI Lab Report on August 9, 2013,
(Doc.# 17-1, pg.# 375-383) Det. Jason Gohlike was. Strickland v. Washington (1984), 466 U.S. 668.

■>3.

t*

’ .v *

MS. HARTNETT: He fired five times at Sergeant Smith's car. And that's relevant, because
Sergeant Smith told you he was on the other side of it. He had run there to take cover. Does that make
sense? Of course it does.

(Doc.# 17-6, pg.# 1368)

MS. HARTNETT: And the defendant, according to him, didn't fire a shot at 1512. But magically
his bullets, his bullets, the same that were tested and determined to have been fired from his gun, end
up in that, parts of them in that cruiser and in the house across the street from where the cruiser was
parked. It's just magic apparently.

(Doc.# 17-6, pg.# 1365)

"The prosecutor must not abuse it's trust by misleading the jury about the laws or the
evidence." Berger, supra.

MS. HARTNETT: What, ah, is done with the items once they are photographed and collected?

DET. GRIZZARD: They are put into evidence bags and placed into evidence.

MS. HARTNETT: Okay. And then from there, are they submitted for testing?

DET. GRIZZARD: Yes, they are.

MS. HARTNETT: And in this case where they submitting for, submitted for testing?

DET. GRIZZARD: BCI.

MS. HARTNETT: And BCI is the Bureau?

DET. GRIZZARD: Bureau of Criminal Investigation.

MS. HARTNETT: Okay. How do the items physically get to BCI?

DET. GRIZZARD: That would be done by our evidence officer.

MS. HARTNETT: And do you recall who your evidence officer was in August?

H-

DET. GRIZZARD: Jason Coquille (Doc.# 17-1, pg.# 1026) (see again, pg.# 375-383)

Appellate counsels reasonableness was to also fail to mention, on direct appeal, the State and
trial counsel failed to inform petitioner and the trial jurors that Det. Jason "coquille" Gohlike never
mentioned or submitted [or had tested] any of Det. Grizzards or Sergeant Smiths (5) five bullet
fragments that struck "sgt.smiths" vehicle 1512, (3) three different times within this avoided (48 day)
BCI Lab Report. Giglio v. United States (1972), 405 U.S. 150. (see again, Doc.# 17-1, pg.# 375-383).

There s a reasonable probability of different result with effective assistance of appellate counsel
had appellate counsel, Derek J. Lowry, mentioned these prejudicial facts on petitioner's direct appeal.
Teague v. Lane (1989), 489 U.S. 288; see Evitts v. Lucey (1985), 409 U.S. 387, 396.

Petitioner has demonstrated throughout his appeal a miscarriage of justice occurred before,
during and after petitioner's criminal proceeding and conviction. A conviction that was knowingly and
intentionally obtained through the misrepresentation of the evidence and facts. Miller v. Pate (1967),
386 U.S. 1.

Petitioner has stated a valid claim of denial of his constitutional rights from the record,
displayed above, from the evidence "BCI Lab Report" and it's two conductors that was deceitfully
avoided. Evidence "(5) five bullet fragments" that was never submitted or tested. Petitioner respectfully
request this Supreme Court grant this Petition and order the physical evidence to be truthfully and
finally tested for this Court and the record, because that's petitioners constitutional right and the lower
courts failed to grant petitioner a Writ of Habeas Corpus under 28 U.S.C. §2254 (d) (1) and (2) violations,
from these facts.

U.S. Const, amend. VI. And XIV.

CONCLUSION

The Petition for a Writ of Certiorari should be granted.

Respectfully submitted,

1.9 Si,
Steven P. BuBenchik, Jr.,
#651282 Lae.C.I
P.O. Box 8000
Conneaut, Ohio 44030

Date:

I to.

o '1^

